APPENDIX

1a

APPENDIX A

UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT

UNITED STATES OF
AMERICA,
Plaintiff - Appellee,

FILED
United States Court of
Appeals Tenth Circuit
November 14, 2019

v.
DERRICK LUCIUS
WILLIAMS, JR.,

Elizabeth A. Shumaker
Clerk of Court

Defendant - Appellant.
-----------------------------ELECTRONIC FRONTIER
FOUNDATION,

No. 18-1299

Amicus Curiae.
Appeal from the
United States District Court
for the District of Colorado
(D.C. No. 1:16-CR-00249-WJM-1)
Josh Lee, Assistant Federal Public Defender (Virginia
L. Grady, Federal Public Defender, with him on the
brief), Denver, Colorado, for Defendant - Appellant.

2a
Marissa R. Miller, Assistant U.S. Attorney (Jason R.
Dunn, United States Attorney, with her on the brief),
Denver, Colorado, for Plaintiff - Appellee.
Sophia Cope and Adam Schwartz, Electronic Frontier
Foundation, San Francisco, California, filed an
Amicus Curiae brief, in support Defendant Appellant.
Before BACHARACH, KELLY, and CARSON,
Circuit Judges.
KELLY, Circuit Judge.
Defendant-Appellant Derrick Williams pled guilty
to transportation of child pornography, 18 U.S.C.
§ 2252A(a)(1) and (b)(1), and possession of child
pornography, 18 U.S.C. § 2252A(a)(5)(B) and (b)(2),
reserving his right to appeal the denial of a motion to
suppress.
He was sentenced to 84 months’
imprisonment and five years of supervised release.
Our jurisdiction arises under 28 U.S.C. § 1291 and we
affirm.
Background
On November 24, 2015, Mr. Williams, an American
citizen, boarded an international flight bound for
Denver International Airport (DIA). Once on the
ground, he proceeded to customs where his passport
triggered multiple “lookout” alerts in the U.S.
Customs and Border Patrol (CBP) enforcement
system. The alerts instructed CBP officers to escort
Mr. Williams to DIA’s secondary screening area where
he was met by Homeland Security Special Agent Kyle
Allen.

3a
Agent Allen became aware of Mr. Williams in
August 2015 when he received a letter stating that Mr.
Williams had been arrested in Germany for violating
weapons laws. According to the letter, someone
reported seeing Mr. Williams and another man
brandishing weapons in a suburban neighborhood.
Officers found a crossbow, multiple pistols, and an
airsoft gun that resembled an automatic rifle in their
possession.
The letter additionally stated that it was unclear
how Mr. Williams entered Germany as he was banned
from the country in 2011 after being discovered living
there on an expired visa.
The ban extended
throughout the Schengen Area for a five-year period.
However, Mr. Williams admitted to German law
enforcement that in 2015 he had already traveled
through Belgium, France, Iceland, and the
Netherlands — all Schengen member states — and
that he would go to Morocco next.
Prompted by this letter, Agent Allen began
investigating Mr. Williams and discovered that he had
domestic felony convictions for trespass, unlawful use
of a financial instrument, fraud, and escape. The
escape charge arose when Mr. Williams fled the
United States in 2007 while serving a community
corrections sentence. Mr. Williams was convicted in
2011 after being deported from Germany to the United
States.
On November 13, 2015, terrorist cells operating in
France and Belgium launched a large-scale attack in
Paris. The terrorists, who claimed allegiance to the
Islamic state, were of Moroccan descent. Agent Allen’s
supervisors asked that he review his open

4a
investigations.
Agent Allen then reviewed Mr.
Williams’s file and, though he did not have specific
information linking Mr. Williams to terrorist activity,
placed a lookout on Mr. Williams in the CBP
enforcement system.
Less than two weeks after the attacks, Agent Allen
learned that Mr. Williams had boarded a flight from
Paris to Denver with a stopover in Reykjavik. He met
Mr. Williams at DIA to interview him. Prior to
conducting the interview, however, Agent Allen
reviewed Mr. Williams’s customs declaration form and
noticed that he had not listed Germany as one of the
countries visited. Only Belgium, France, and Morocco
were included.
During the interview, Mr. Williams was repeatedly
asked if he had traveled to other European countries
not listed on his customs declaration form. He was
evasive and never affirmatively admitted to having
been in Germany. He also gave vague answers
regarding his time in Belgium and claimed that he
split his time there between a hostel and living with a
friend. He could not give specific information about
the friend other than that his name was Mohammed
and they had met near a mosque.
At the close of the interview, Agent Allen explained
to Mr. Williams that his electronic devices, a laptop
and a smartphone, would be searched. He asked for
the devices’ passwords, which Mr. Williams refused to
give. As a result, two forensic computer specialists
attempted to get around the passwords. When they
were unsuccessful, Agent Allen told Mr. Williams that
his electronics would need to be taken to another site
and would be returned to him later. He asked Mr.

5a
Williams where the devices should be returned, and he
gave his address as 3333 Curtis Street. Agent Allen
noticed this address did not match the 2952 Downing
Street address that Mr. Williams listed as his home
address on both the customs declaration form and his
most recent passport application. Mr. Williams was
allowed to leave.
The next day, Agent Allen took Mr. Williams’s
electronics to his office. A computer forensics agent
used a software program called “EnCase” to bypass the
laptop’s password and create a copy of the hard drive,
which he was then able to search. Within three
minutes, the agent found a folder titled “Issue 15 Little
Duchess,” which contained child pornography. He
immediately stopped his search and notified Agent
Allen who subsequently obtained a search warrant
authorizing a full forensic search.
The search
ultimately yielded thousands of images and videos of
child pornography.
Mr. Williams was indicted and moved to suppress
the evidence obtained from his laptop on grounds that
it was tainted by the three-minute search conducted
prior to the issuance of a search warrant. He argued
that the agents needed reasonable suspicion for this
kind of search and that, because they did not have it,
his Fourth Amendment rights were violated. The
government countered that the Fourth Amendment
allowed for suspicionless searches at the border and
that, even if reasonable suspicion were required, they
had ample reason to suspect that Mr. Williams was
involved in criminal activity. The district court held a
hearing on the matter and subsequently denied the
motion.
The court declined to decide whether
reasonable suspicion was necessary to justify the

6a
search but found that because the agents had it in this
case, Mr. Williams could not prevail either way. On
appeal, Mr. Williams argues that the district court
erred in holding that the search was supported by
reasonable suspicion and that, without reasonable
suspicion, the search of his personal electronic devices
at the border violated his Fourth Amendment rights.
Discussion
We review a district court’s factual findings
pertaining to a motion to suppress for clear error,
Ornelas v. United States, 517 U.S. 690, 699 (1996), and
view evidence in the light most favorable to the
prevailing party, United States v. Jones, 523 F.3d
1235, 1239 (10th Cir. 2008). Whether a search was
reasonable under the Fourth Amendment is a question
of law reviewed de novo. United States v. Greenspan,
26 F.3d 1001, 1004 (10th Cir. 1994).
Although Mr. Williams asks us to find that searches
of personal electronic devices at the border must be
supported by reasonable suspicion, we decline to do so.
It is well-established that in deciding constitutional
questions, courts should strive “never to formulate a
rule of constitutional law broader than is required by
the precise facts to which it is to be applied.”
Liverpool, N.Y. & Phila. Steam-Ship Co. v. Com’rs of
Emigration, 113 U.S. 33, 39 (1885). Moreover, under
any interpretation of the Fourth Amendment put forth
by Mr. Williams, reasonable suspicion is sufficient to
justify a border search of personal electronic devices.
As we agree with the district court that reasonable
suspicion was present here, Mr. Williams’ own
arguments preclude him from prevailing.

7a
Law enforcement officers must “have an articulable,
individualized, reasonable suspicion that an
individual is involved in some criminal activity.”
United States v. Rascon-Ortiz, 994 F.2d 749, 752 n.3
(10th Cir. 1993). In the Fourth Amendment context,
the “reasonable suspicion analysis requires a careful
consideration of the ‘totality of the circumstances.’”
United States v. Esquivel-Rios, 725 F.3d 1231, 1238
(10th Cir. 2013) (quoting United States v. Cortez, 449
U.S. 411, 417 (1981)).
Here, the totality of
circumstances surrounding the search of Mr.
Williams’s laptop readily meet the reasonable
suspicion standard.
First, Mr. Williams’s criminal history concerns
border offenses. He fled the United States a fugitive
and was convicted after deportation from Germany.
Moreover, German authorities banned Mr. Williams
from entering any country in the Schengen Area
between 2011 and 2016. Agent Allen knew that Mr.
Williams had blatantly contravened this ban in 2015
by traveling undetected through Iceland, the
Netherlands, Belgium, France, and Germany.
Second, Agent Allen knew Mr. Williams had been in
Germany prior to his return to the United States, yet
Mr. Williams did not list Germany as one of the
countries visited on his customs declaration form
despite attesting via signature that his answers on the
form were truthful. Additionally, Mr. Williams evaded
all of Agent Allen’s questions regarding his time in
Germany and claimed that, because of his advanced
age of 39, he was unable to recall details regarding his
time abroad. See United States v. Himmelwright, 551
F.2d 991, 996 (5th Cir. 1977) (upholding a search as

8a
reasonable based in part on defendant’s evasive and
contradictory statements).
Third, Mr. Williams was returning to the United
States on a one-way ticket originating in Paris — the
site of devastating terrorist attacks less than two
weeks earlier. His travel itinerary included Belgium,
France, and Morocco, three countries intimately
linked to the attacks. See United States v. Irving, 452
F.3d 110, 124 (2d Cir. 2006) (finding a suspicious
itinerary relevant under the totality of the
circumstances test). Additionally, Mr. Williams had
been arrested in Germany for brandishing what
appeared to be weapons.
Finally, Mr. Williams appeared to distance himself
from his electronic devices.
On his customs
declaration form, Mr. Williams gave his home address
as 2952 Downing Street and yet, when asked where
the devices should be returned, gave his address as
3333 Curtis Street. The totality of the circumstances
is sufficient to justify a warrantless search of the
laptop and cell phone.
Relatedly, Mr. Williams argues that even if the
border agents had reasonable suspicion that he was
engaged in criminal activity, this suspicion was not
particularized enough to justify the search. He
suggests that border agents are tasked exclusively
with upholding customs laws and rooting out the
importation of contraband. He argues that because
border agents did not suspect him of either of these
types of crimes, they were prevented from searching
his laptop and cell phone. We disagree because “[t]he
Fourth Amendment does not require [law
enforcement] officers to close their eyes to suspicious

9a
circumstances.”
Rascon-Ortiz, 994 F.2d at 753
(quoting United States v. Johnson, 895 F.2d 693, 696
(10th Cir. 1990)).
Finally, Mr. Williams argues that the scope and
duration of his laptop search was unreasonable under
the Fourth Amendment. This argument has been
waived as it was not raised in the motion to suppress
and Mr. Williams did not show good cause for his
untimeliness in this regard. United States v. Bowline,
917 F.3d 1227, 1234 (10th Cir. 2019) (“[A]n untimely
argument . . . is not reviewable either in district court
or in any subsequent proceedings absent a showing of
an excuse for being untimely.”).
AFFIRMED.

10a

APPENDIX B

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Judge William J. Martínez
Criminal Case No. 16-cr-249-WJM
UNITED STATES OF AMERICA,
Plaintiff,
v.
1. DERRICK LUCIUS WILLIAMS JR.,
Defendant.
ORDER DENYING MOTION TO SUPPRESS
The Government has charged Defendant Derrick
Lucius Williams Jr. (“Williams”) with one count of
transporting child pornography and one count of
possessing child pornography. (ECF No. 1.) Williams
moves to suppress the relevant evidence against him,
given that it was gathered when federal customs
agents seized and forensically examined his laptop
upon his reentry to the United States at Denver
International Airport (“DIA”). (ECF No. 19.) Williams
argues that the search required reasonable suspicion,
and that such suspicion was lacking. The Government
counters that it has plenary authority at the border to
search digital devices. For the reasons explained
below, the Court does not reach the Government’s

11a
plenary-authority argument because the Court finds
that reasonable suspicion existed to search Williams’s
laptop. Williams’s motion is therefore denied.
I.

FACTS

Homeland Security Special Agent Kyle Allen
(“Allen”) is a Denver-based federal law enforcement
officer who investigates, among other things, possible
legal violations by persons entering the country at
DIA. In August 2015, Allen received a letter from the
FBI’s Denver field office about a law enforcement
report that German officials had recently shared with
United States officials. The letter read in relevant
part as follows:
Denver FBI was notified by the Office Legal
Attach[é], Frankfurt[,] Germany [i]n July 2015
that the Polizei Präsidium South Hessen (PPSH)
had arrested Derrick Williams, a resident of
Colorado at the time.
In May 2015, PPSH arrested Derrick Williams
for violating weapons laws. (Note: weapons were
bow/arrow and air gun, not permitted to be used
in public spaces.) At the time of the arrest, a brief
interview was conducted with Williams.
Williams provided his travel itinerary,
documenting his travel to Mainz, Germany via
Reykjavik, Iceland and Amsterdam. Williams
flew from Denver to Reykjavik, then on to
Amsterdam. He spent seven days in Amsterdam
before taking a train to Mainz, Germany. He had
an open-ended bus ticket from Mainz to Brussels,
Belgium and advised arresting officers he would
be traveling from Brussels to Morocco. PPSH did
not collect further intelligence from Williams

12a
during the interview and advised him he had
three days to leave Germany.
Upon further investigation, PPSH advised [that]
Williams was in Germany from November 2007
until October 2011. Most of that time, he was
[t]here illegally (his passport or visa expired
4/2/2008).
On 10/17/2011, upon discovering
[that] Williams was there illegally, German
authorities put a Schengen alert on him, which
banned him from entering any Schengen member
state[1] from 10/17/2011 until 10/16/2016 (NFI).[2]
It is unclear how Williams entered Iceland and
the Netherlands with this ban in place. PPSH
had no further information on Williams or his
travel after leaving Germany in May 2015.
(Defendant’s Exhibit (“DX”) G.)
This letter prompted Allen to begin an investigation
into Williams. This investigation included Williams’s
most recent passport application, from which Allen
obtained Williams’s permanent address of 2952
Downing Street, Denver—a detail that would become
important later. Allen also looked at Williams’s travel
history, to the extent it was known by United States
1

The Schengen Area is a group of European countries (not
precisely coterminous with the European Union) where free
travel across their various borders is permitted once a traveler is
lawfully admitted to one of them. As relevant to the present
proceeding, member states include Belgium, France, Germany,
Iceland, and the Netherlands. See https://travel.state.gov/
content/passports/en/go/schengen-fact-sheet.html (last accessed
Sept. 20, 2017).
2

The meaning of “NFI” is unknown. One possible meaning
relevant to this context is “not formally invited.”

13a
databases, and it showed that he had departed the
country in May 2015 on a one-way ticket to Reykjavik.
In addition to the foregoing, Allen checked
Williams’s criminal history, which included felony
convictions for trespass, use of a financial instrument,
fraud, and escape. The escape conviction shed light on
Williams’s presence in Germany from 2007 to 2011.
Williams had been serving a community corrections
sentence in 2007. One night, instead of going to work
as authorized by his parole officer, Williams headed to
DIA and fled the country—hence the charge of felony
escape. When Williams returned to the United States
in 2011 (upon his deportation from Germany), he was
convicted in Colorado state court on that escape
charge.
Allen apparently did little else with respect to
Williams until November 2015. As is well known,
terrorists attacked civilians in various locations in and
around Paris on November 13, 2015. Parts of France
and Belgium (where the terrorist cell was based) were
“on lockdown” for several days thereafter. Authorities
were searching for suspects in those countries, as well
as in Germany.
Prompted by this event, Allen’s supervisors
requested that he and his fellow officers review their
current investigations to determine if any persons
might be “of interest.” Allen had no information
specifically linking Williams to the Paris attacks.
Nonetheless, on November 18, 2015 he created a
“lookout” in what U.S. Customs and Border Patrol
(“CBP”) refers to as the “TECS” database. This
lookout would ensure that Allen would receive
notification if Williams sought to reenter the United

14a
States through a regular port of entry. Allen’s lookout
also instructed Customs and Border Patrol officials to
escort Williams to “secondary” if he presented himself
at a port of entry—meaning that Williams should not
be allowed to pass into the country solely based on the
“primary” interview with the CBP officer that inspects
travelers’ passports and customs declarations, but
should instead be taken to a side room for further
questioning.
Allen’s lookout was well-timed (or ill-timed, from
Williams’s perspective). Six days later (November 24,
2015), Allen received word that Williams had boarded
a flight in Paris on a one-way ticket bound for
Reykjavík and then Denver, meaning Williams would
likely arrive at DIA that evening.
Allen arranged to be present at the DIA port of entry
around the time of Williams’s expected arrival. At
Allen’s request, two Homeland Security computer
forensic agents also arranged to be there, in case
Williams was carrying electronic devices that could
not be searched without special tools.
Williams indeed arrived at the DIA port of entry a
little before 7:00 PM. At the primary inspection point,
Williams presented his signed customs declaration
form (the standard CBP Form 6059B) to a CBP officer,
who then relayed the declaration form to Allen. On
that form, Allen saw that Williams had given 2952
Downing Street, Denver, as his address—the same
permanent address listed on his passport application.
(See Government’s Exhibit (“GX”) 9.) However, on the
line for “Countries visited on this trip prior to U.S.
arrival,” Allen noticed that Williams had written
“Belgium, France, Morocco” but not Germany. (Id.)

15a
Allen concluded that Williams’s answer was an
intentional omission, or in other words, that Williams
could not have innocently forgotten his time in
Germany, given that he had been arrested there.
Per Allen’s TECS lookout, the primary CBP officer
referred Williams to the secondary inspection area,
where Williams spoke with another CBP officer.
While speaking with that officer, still other CBP
officers searched Williams’s luggage and found
nothing of immediate concern, although they located a
laptop and a smartphone that they could not access
due to password protection.
The Homeland Security computer forensic agents
went to work on these devices. Those agents brought
only “light-weight forensic equipment” (as compared to
the “larger forensic workstations” they have at their
offices). If that equipment had been able to bypass the
password on the laptop and/or smartphone, the agents
planned to quickly browse through the files and
records immediately available on the device in
question, not to run a full forensic scan. However, the
agents could not crack the password on either device.
While the forensic agents were working on those
devices, Williams was escorted into an interview room
where he met Allen and Aurora Police Detective Craig
Appel (“Appel”), who was at that time a deputized FBI
“task force officer” as part of a joint counterterrorism
task force. Allen and Appel (together, “the Agents”)
interviewed Williams for approximately the next
thirty minutes, with an audio recorder running. (See
GX 10 (audio recording of the interview).)
For roughly the first ten minutes of the interview,
Williams and the Agents discussed his purpose for

16a
spending close to six months abroad. Williams
explained that he had been engaged to marry a
Moroccan woman in Morocco, but the process by which
a foreigner can marry a Moroccan in Morocco is
lengthy and paperwork-laden. Moreover, he was only
permitted to stay in Morocco for three months at a
time, which was not long enough to complete the
paperwork. Rather than incur the expense of flying
back to the United States after those three months, he
adopted a less expensive alternative: fly to Brussels
and spend three weeks there in a hostel, or with a
friend, and then return to Morocco to continue the
marriage approval process. During his second trip to
Morocco, he finally married his fiancée, and he now
planned to apply to bring her to the United States. (Id.
at 2:35–10:00.)
During this portion of the interview, the Agents
asked Williams for the name of the friend with whom
he stayed in Brussels. Williams identified the friend
as “Mohammed,” whose last name Williams did not
know. Williams had met Mohammed at a restaurant
near a mosque in Brussels, although he could not
remember the name of the mosque. Williams said that
Mohammed recognized him as a stranger to the city
and also a Muslim, and invited him to stay at
Mohammed’s place. (Id. at 7:00–8:30.)
Roughly the second ten minutes of the interview
were dominated by discussion of Williams’ laptop and
smartphone. By this time, someone had informed
Allen that those devices were password-protected, and
that the forensic agents had failed to bypass the
passwords. The Agents therefore tried to convince
Williams to divulge his laptop password and
smartphone swipe code. Allen informed Williams that

17a
“border search authority” gave him power to inspect
all items entering the United States, including the
contents of Williams’s digital devices, and that those
devices would be searched one way or the other.3
However, the process would be much quicker if
Williams would help them to access his devices.
Williams refused to disclose his password and swipe
code, explaining that he believed it was an invasion of
his constitutional rights generally, and also that he
was being targeted because he is Muslim. (Id. at
10:00–20:50.) The Agents therefore had Williams fill
out two claim forms for his electronic devices (one for
the laptop, one for the smartphone). On both forms,
Williams gave his address as 3333 Curtis Street,
Denver. (GX 11.) Allen noticed that this address
differed from the one Williams had just given on his
customs declaration, and the one that had been on his
passport application, but did not ask Williams about
the discrepancy.
For roughly the last ten minutes of the interview,
the Agents repeatedly asked Williams if he had been
to Germany during the last six months, and Williams
repeatedly avoided answering. For example:


3

In one instance Williams responded, “You have
the information where I was at . . . from my

Allen believed, although he did not explain as much to
Williams, that border search authority was essentially unfettered
with respect to travelers’ belongings. Allen obtained this belief
from ICE Directive 7-6.1, § 6.1, which states that “ICE Special
Agents acting under border search authority may search, detain,
seize, retain, and share electronic devices, or information
contained therein, with or without individualized suspicion . . . .”
(DX H at 2.)

18a
passport.” Allen observed, however, that not
every European country would stamp a
traveler’s passport, apparently referring to the
Schengen Area protocol.


In another instance Williams directed the
Agents to speak with the United States
consulate in Casablanca, whose officials
(according to Williams) had also asked him if he
had been in Germany. “They know better,”
Williams said. But in response to Allen’s
question, “They know—so you told them?”,
Williams answered, “No, they asked me the
same question like you did, was I in Germany?”



In yet another instance, Williams simply
responded, “What do you think?”



Williams claimed that the fatigue of travel, and
aging generally, were affecting his memory.

Williams eventually volunteered that he had lived in
Germany “a long time ago” on an expired visa because
he had traveled there but run out of money to return,
and admitted that he had been deported and banned
from Germany.
Understanding Williams to be
referring to his time from 2007 to 2011, Allen asked,
“What about this trip?” Williams returned to his
previous evasiveness, implying that the Agents were
being dishonest by asking him a question to which
they already knew the answer. (GX 10 at 20:50–
28:20.)
With matters essentially at a stalemate, Williams
stated that he wanted to go home, and the agents did
not hold him up with any more questions. They
explained, however, that his unwillingness to provide
his password and swipe code would “greatly increase”

19a
the time it would take for them to return his laptop
and smartphone. Williams stated that he understood
but was going to stand on principle. He then left the
airport with his belongings, minus the laptop and
smartphone. Those two items were placed in a secure
locker at the port of entry.
The following morning (November 25, 2015), Allen
returned to DIA, retrieved the laptop and smartphone,
and drove them to a Homeland Security office in
Greenwood Village. There, he handed off the devices
to one of the computer forensic agents that had come
to the airport the previous evening, Christopher
McGuckin (“McGuckin”).
Allen then attempted to e-mail Williams at an email address Williams provided on the customs claim
form the previous evening. Allen understood from
Williams that the only phone number that could reach
him was the one associated with Williams’s
smartphone, and since Allen was detaining the
smartphone, he wanted to make sure that at least the
e-mail address was valid. Thus, he asked Williams,
“[C]an you please respond to this e-mail so I know this
account is checked[?]” (GX 12.) The e-mail also
contained Allen’s phone number. (Id.) Williams never
replied to this e-mail, either that day or later.
While Allen was e-mailing Williams, McGuckin and
a subordinate began working on the laptop and
smartphone. They first removed the laptop’s hard
drive and made a bit-for-bit copy, so they could work
on the copy and avoid potentially altering the original.
They completed the copy that day but did not inspect
any of the copied data.

20a
The next day (November 26, 2015) was
Thanksgiving and McGuckin was not in the office for
the remainder of that week.
He finally began
examining the hard drive image on December 1, 2015.
He loaded the image into EnCase, a computer program
used for forensic examination of digital media.
EnCase’s initial processing included recovery of “lost
folders,” which McGuckin described as follows: “if a
folder or file’s parent folder is deleted then a—the link
to that, to its location, is lost, so recovering the lost
folders attempts to reconstruct that.” No party has
explained the difference, if any, between recovering
lost folders and recovering deleted files. In any event,
at this time McGuckin did not inspect whatever
EnCase had managed to recover, nor did he direct
EnCase to index the hard drive for ease of searching.
When EnCase had finished preparing the data, it
displayed the contents of Williams’s hard drive image
through a graphical user interface similar to what one
would see if accessing the hard drive through the
laptop, as shown in the following excerpt from a
screencast video McGuckin created to document the
process he followed:

21a

(GX 15 at 4:33.) As can be seen by the location of the
cursor, a folder named “Issue 15 Little Duchess”
quickly drew McGuckin’s attention.
He began
browsing that folder, as one could do if accessing it
directly through the laptop, and soon discovered child
pornography.
McGuckin did not go any further in his examination
that day. Allen instead applied for a search warrant
to examine the entire laptop. That warrant issued on
December 4, 2015, at which point McGuckin began a
detailed forensic analysis of the hard drive image,
including keyword searches and file type searches, as
well as retrieval of e-mails, Internet browsing and
search history, and BitTorrent history.
It took McGuckin until June 2016 to complete his
forensic report of the hard drive image. By that time,

22a
he had “discovered several thousand images and
videos consistent with child pornography.” (DX F at
4.) As for Williams’s smartphone, McGuckin could not
crack it with his equipment and therefore sent it to
another lab. That lab was finally able to access the
smartphone’s contents several months later. No
contraband files were found on the smartphone,
however.
On July 27, 2016, a grand jury indicted Williams
with the offenses of transportation and possession of
child pornography. (ECF No. 1.) Williams was
arrested on September 26, 2016. (ECF No. 4.)
II.

BURDEN OF PROOF

On a motion to suppress evidence derived from a
warrantless search, the defendant bears the burden of
presenting a prima facie case that the Fourth
Amendment has been “implicated,” at which point the
burden shifts to the Government to prove “that its
warrantless actions were justified (i.e., as a lawful
investigatory stop, or under some other exception to
the warrant requirement).” United States v. Carhee,
27 F.3d 1493, 1496 (10th Cir. 1994); see also id. at
nn.1–2 (citing authorities); 6 Wayne R. LaFave,
Search & Seizure § 11.2(b), at n.35 and accompanying
text (5th ed., Oct. 2016 update) (“Search & Seizure”).
Williams’s motion reveals that his personal Fourth
Amendment rights are implicated here. He has
therefore raised a prima facie case of a potential
Fourth Amendment violation through a warrantless
search, thus shifting the burden to the Government to
justify the search.

23a
III. ANALYSIS
A.

Border Search Authority

As noted above, Allen invoked “border search
authority” to seize and search Williams’s laptop and
smartphone. Although it is not clear precisely what
Allen meant by the phrase “border search authority,”
it is nonetheless a recognized concept—or, more
specifically, an established application of the Fourth
Amendment’s guarantee against unreasonable
searches and seizures. In general, “searches made at
the border, pursuant to the long-standing right of the
sovereign to protect itself by stopping and examining
persons and property crossing into this country, are
reasonable [under the Fourth Amendment] simply by
virtue of the fact that they occur at the border.” United
States v. Ramsey, 431 U.S. 606, 616 (1977). But
narrow exceptions exist to this otherwise broad
pronouncement of per se reasonableness.
1.

Montoya de Hernandez (1985)

Apparently the first Supreme Court decision to
deviate from this blanket pronouncement of
reasonableness was United States v. Montoya de
Hernandez, 473 U.S. 531 (1985). In Montoya de
Hernandez, the suspect was detained at Los Angeles
International Airport upon her arrival from Bogotá,
Colombia. Id. at 533. A customs inspector noticed
that she had recently made at least eight trips from
Bogotá either to Miami or Los Angeles. Id. When she
provided a fairly implausible account of why she had
traveled to the United States again, she was referred
to a female officer for a strip search. Id. at 533–34.
The female officer noticed that the suspect’s abdomen
was unusually firm, among other things. Id. at 534.

24a
The inspectors formed a belief that the suspect “was
a ‘balloon swallower,’ one who attempts to smuggle
narcotics into this country hidden in her alimentary
canal.” Id. After detaining her for several hours while
“she exhibited symptoms of discomfort consistent with
heroic efforts to resist the usual calls of nature,” they
subjected her to a pregnancy test (because she claimed
she was pregnant and so could not be x-rayed), which
turned out negative; and then a rectal examination,
which recovered “a balloon containing a foreign
substance.” Id. at 535. Over the next four days, she
passed a total of eighty-eight balloons, all containing
cocaine. Id. at 536.
The Ninth Circuit ruled that such an invasive
search required “a ‘clear indication’ or ‘plain
suggestion’ that the traveler was an alimentary canal
smuggler.” Id. at 536. The Supreme Court held that
this standard was too high, but it did not fall back on
its prior pronouncements that effectively eliminated
the Fourth Amendment at the border. It instead
summarized its prior cases by noting that “[r]outine
searches of the persons and effects of entrants are not
subject to any requirement of reasonable suspicion,
probable cause, or warrant,” id. at 538, and then
pivoted to the facts at hand by stating, “We have not
previously decided what level of suspicion would
justify a seizure of an incoming traveler for purposes
other than a routine border search,” id. at 540. In
other words, the Supreme Court seemed to be saying
that its prior cases involved “routine” border searches,
whereas the case sub judice did not.
Continuing this routine/nonroutine distinction, the
Court eventually announced a holding specific to the
alimentary canal smuggling context: “the detention of

25a
a traveler at the border, beyond the scope of a routine
customs search and inspection, is justified at its
inception if customs agents, considering all the facts
surrounding the traveler and her trip, reasonably
suspect that the traveler is smuggling contraband in
her alimentary canal.” Id. at 541. The Court found
that this “‘reasonable suspicion’ standard has been
applied in a number of contexts and effects a needed
balance between private and public interests when
law enforcement officials must make a limited
intrusion on less than probable cause.” Id. It
emphasized, however, that this standard requires “a
particularized and objective basis for suspecting the
particular person of alimentary canal smuggling.” Id.
at 541–42 (internal quotation marks omitted).
The Supreme Court did not explain if this level of
specificity was generally required in any nonroutine
border search, or only required specifically in the
“balloon swallowing” context because of the
intrusiveness of the methods used to detect it. In any
event, Montoya de Hernandez was the first and—so
far—only time the Supreme Court has declared that a
particular border search required any amount of
suspicion.
On the facts of the case itself, the Supreme Court
found that the border officers were justified by
reasonable suspicion to take the various actions they
took to confirm their suspicions, including the
prolonged detention needed to ensure that the suspect
passed all of the balloons. Id. at 542–44.
2.

Uribe-Galindo (10th Cir. 1993)

Following Montoya de Hernandez, the Tenth Circuit
has held that “the distinction between ‘routine’ and

26a
‘nonroutine’ turns to a large extent upon the degree of
intrusiveness of the particular type of search.” United
States v. Uribe-Galindo, 990 F.2d 522, 525 (10th Cir.
1993). Uribe-Galindo specifically involved a border
search in which: (1) border patrol agents crawled
under a vehicle and noticed numerous signs that the
fuel tank had recently been worked on; (2) the agents
then inspected the interior of the fuel tank with a fiber
optic scope and saw fresh welding marks and some
sort of unusual compartment within the tank; and
finally (3) agents removed and disassembled the gas
tank, and thereby discovered marijuana. Id. at 523–
24. The Tenth Circuit held that the initial action—
crawling under the vehicle to inspect its
undercarriage—was a “routine” border search. Id. at
525–26. And, once the agents saw the exterior of the
fuel tank with their own eyes, including the signs of
recent work on the tank, they possessed reasonable
suspicion to employ the fiber optic scope and then to
disassemble the tank. Id. at 524.
3.

Flores-Montano (2004)

A very similar fuel tank search prompted one of the
Supreme Court’s more recent border search cases. In
United States v. Flores-Montano, 541 U.S. 149 (2004),
the defendant’s car was detained at the border and an
inspection agent noticed that the fuel tank sounded
solid. Id. at 151. The inspection agent then ordered a
mechanic contractor to remove and inspect the fuel
tank, and that process revealed marijuana. Id. The
Ninth Circuit, relying on the same “degree of
intrusiveness” test followed by the Tenth Circuit since
Uribe-Galindo, determined that removing a fuel tank
was particularly intrusive, and therefore required
reasonable suspicion, which was apparently lacking.

27a
Id. at 151–52. The Supreme Court rejected this
reasoning, finding that there was no “degree of
intrusiveness” test generically applicable both to
persons and property:
The Court of Appeals seized on language from our
opinion in [Montoya de Hernandez—the “balloon
swallower” case]. The Court of Appeals took the
term “routine,” fashioned a new balancing test,
and extended it to searches of vehicles. But the
reasons that might support a requirement of
some level of suspicion in the case of highly
intrusive searches of the person—dignity and
privacy interests of the person being searched—
simply do not carry over to vehicles. Complex
balancing tests to determine what is a “routine”
search of a vehicle, as opposed to a more
“intrusive” search of a person, have no place in
border searches of vehicles.
Id. at 152 (citations omitted). The Supreme Court
rejected the defendant’s argument “that the
disassembly and reassembly of his gas tank is a
significant deprivation of his property interest because
it may damage the vehicle.” Id. at 154. The Court
cited statistics of how frequently the Government
disassembles and reassembles fuel tanks at the
border, and those statistics showed no ensuing
accidents or destruction. Id. at 154–55. Thus, “the
Government’s authority to conduct suspicionless
inspections at the border includes the authority to
remove, disassemble, and reassemble a vehicle’s fuel
tank. While it may be true that some searches of
property are so destructive as to require a different
result, this was not one of them.” Id. at 155–56.

28a
Williams summarizes Flores-Montano’s holding as
follows: “the government’s removal, disassembling,
and reassembling of a vehicle’s fuel tank was ‘routine’
and did not need to be based on reasonable suspicion.”
(ECF No. 19 at 9.) This is inaccurate in an important
respect. The Supreme Court did not announce this
holding in terms of the routine/nonroutine distinction
seemingly established by Montoya de Hernandez.
Indeed, it criticized the Ninth Circuit for having
established such a distinction (although such a
distinction seems obvious in Montoya de Hernandez
itself). After summarizing and criticizing the Ninth
Circuit’s reasoning, the words “routine” or
“nonroutine” do not again appear in the Supreme
Court’s opinion. The Court simply placed fuel tank
inspections in the category of permissible
“suspicionless” searches. See also United States v.
Cortez-Rocha, 394 F.3d 1115, 1119 (9th Cir. 2005)
(“the application of the routine/non-routine balancing
test in these cases was specifically refuted in FloresMontano”). Nonetheless, most courts after FloresMontano still invoke the distinction between routine
and nonroutine seemingly set up in Montoya de
Hernandez.
4.

Synthesis

The foregoing case law shows the general contours
of the legal landscape: the Government may conduct
some searches at the border entirely without suspicion
of criminal wrongdoing, while some other set of
searches must be justified by reasonable suspicion.
Notably, these appear to be the only two options—no
party argues that there is a point when suspicion must
rise to the level of probable cause, for example.

29a
Once reasonable suspicion exists, the Government
can resort to intrusive measures to determine whether
a customs violation is present. In Montoya de
Hernandez, for example, the presence of reasonable
suspicion permitted Government officials to perform a
pregnancy test and a rectal exam, and then to detain
the suspected smuggler until nature took its course.
And in Uribe-Galindo, reasonable suspicion permitted
removal and disassembly of a gas tank (although
Flores-Montano shows that the Government probably
did not need reasonable suspicion in that instance).
5.

Potential Application to Digital Devices

The parties’ briefs largely focus on whether
complete forensic searches of laptops and smartphones
fall into the “suspicionless” category (Williams names
this the “routine” category) or the “reasonable
suspicion” category (“nonroutine,” according to
Williams). This question is not easily resolved. Some
courts have held that digital devices are basically
large briefcases and may be searched as routinely as
real briefcases—which is to say, without suspicion.
See, e.g., United States v. Ickes, 393 F.3d 501 (4th Cir.
2005); United States v. McAuley, 563 F. Supp. 2d 672,
678 (W.D. Tex. 2008), aff’d, 420 F. App’x 400 (5th Cir.
2011); United States v. Feiten, 2016 WL 894452, at *5–
6 (E.D. Mich. Mar. 9, 2016); People v. Endacott, 79 Cal.
Rptr. 3d 907, 909 (Ct. App. 2008).
Most of these cases, however, predate the point
when smartphone ownership became nearly
ubiquitous. Recognizing that digital devices can (and
usually do) hold the equivalent of warehouses worth of
private information about their owners, and that cloud
computing may augment this by many orders of

30a
magnitude, various courts have quite naturally come
to see searches of personal digital devices as highly
intrusive. These courts have largely settled on a
distinction between (1) a “manual” border search of a
laptop or smartphone (examining a non-passwordprotected device by browsing through immediately
available directories and files, akin to rummaging
through luggage), which requires no suspicion; and (2)
a forensic search that creates an easily searchable
image of all data on the device, potentially including
deleted data, and which can be preserved and
examined at the Government’s leisure, and
accordingly requires reasonable suspicion. See, e.g.,
United States v. Cotterman, 709 F.3d 952, 960–66 (9th
Cir. 2013) (en banc); United States v. Saboonchi, 990
F. Supp. 2d 536, 547–58 (D. Md. 2014).4
Under the facts of this case, the Court need not
choose sides between the body of case law allowing
unfettered border searches of digital devices and the
competing body of case law distinguishing between
manual and forensic searches. The Court likewise
need not decide whether McGuckin’s search was more
4 Although addressing search-incident-to-arrest authority, not

border search authority, the Supreme Court has endorsed the
general principle that smartphones are sui generis, “differ[ing] in
both a quantitative and a qualitative sense from other objects
that might be kept on an arrestee’s person.” Riley v. California,
134 S. Ct. 2473, 2489 (2014). Thus, under most circumstances the
Government must have a warrant to search a smartphone. Id. at
2495. Riley specifically discussed smartphones, not laptops, but a
laptop often surpasses the data storage and cloud computing
capacity of a smartphone. Moreover, the distinction between a
laptop and a smartphone is becoming increasingly blurred
through tablet computers that intentionally bear similarities to
each.

31a
like a manual search (because a password is like a
luggage lock, which CBP may cut to inspect a suitcase,
and McGuckin then browsed through active files and
directories only) or a forensic search (because he used
forensic software to bypass the password and to recreate the file structure, and he could then search the
data at will, including deleted data if desired). If
reasonable suspicion existed (regardless of whether
the Supreme Court would require it to exist), then
under all of the authorities all parties have cited, the
border search doctrine would permit the search that
McGuckin conducted before Allen obtained the search
warrant.
The Court finds that reasonable suspicion existed,
as explained below.5
B.

Reasonable Suspicion
1.

The Reasonable Suspicion Standard Generally

The Tenth Circuit has explained reasonable
suspicion as follows:
Reasonable suspicion is a less demanding
standard than probable cause.
Specifically,
reasonable suspicion is merely a particularized
5

To be clear, Allen believed he could search Williams’s laptop
(or cause it to be searched) without any suspicion of any type,
simply because Williams was trying to bring it through an
international port of entry. Indeed, Allen directed McGuckin to
come to the airport because Allen had already made up his mind
to search any devices Williams might have brought with him.
Allen’s actions were motivated by the ICE Directive discussed at
n.3, supra. But, as explained below, Allen’s subjective state of
mind is not relevant; and because objective reasonable suspicion
existed, the Court need not and expressly does not rule on the
validity of the ICE Directive.

32a
and objective basis for suspecting criminal
activity. To determine whether investigating
officers had reasonable suspicion, we consider
both the quantity of information possessed by law
enforcement and its reliability, viewing both
factors under the totality of the circumstances.
United States v. Mabry, 728 F.3d 1163, 1167 (10th Cir.
2013) (internal quotation marks, citations, and
ellipses omitted). Reasonable suspicion, “does not deal
with hard certainties, but with probabilities. Long
before the law of probabilities was articulated as such,
practical people formulated certain common sense
conclusions about human behavior; jurors as
factfinders are permitted to do the same—and so are
law enforcement officers.” United States v. Cortez, 449
U.S. 411, 418 (1981).
The Government and Williams have debated
precisely what Allen needed to suspect to have
reasonable suspicion. However, Allen’s “subjective
beliefs and intentions are, quite simply, irrelevant.”
United States v. McHugh, 639 F.3d 1250, 1256 (10th
Cir. 2011) (internal quotation marks omitted).
Reasonable suspicion is an objective standard, asking
only “whether the facts available to the detaining
officer, at the time, warranted an officer of reasonable
caution in believing the action taken was appropriate.”
Id. (internal quotation marks omitted).
Consistent with this objective standard, the Tenth
Circuit does not require an officer to have a particular
penal offense in mind. United States v. Guardado, 699
F.3d 1220, 1225 (10th Cir. 2012) (“[W]e reject the
argument that the officers were required to have
evidence linking [the defendant] to . . . particular

33a
criminal activity.
Direct evidence of a specific,
particular crime is unnecessary.”); see also United
States v. Harmon, 871 F. Supp. 2d 1125, 1160 (D.N.M.
2012) (“to establish that reasonable suspicion exists,
officers have no obligation to articulate a specific
offense which they believe the suspect may have
committed”). It is generally sufficient if the facts
known to the officer would reasonably, objectively
suggest “some particular variety of criminal activity.”
4 Search & Seizure § 9.5(c), text following n.122.6
2.

Application to this Case

With these standards in mind, the Court turns to
the facts of this case.
From the moment Allen examined Williams’s
customs declaration form and noticed that it omitted
Germany from the list of countries visited, Allen had
reasonable suspicion—and perhaps even probable
6

Williams argues, “[T]he Supreme Court has made clear that
the reasonable suspicion standard relates to ongoing or imminent
criminal activity, not historic acts,” and for support, cites Cortez,
449 U.S. at 417, for the proposition that “[a]n investigatory stop
must be justified by some objective manifestation that the person
stopped is, or is about to be, engaged in criminal activity.” (ECF
No. 19 at 13.) The Court’s analysis below demonstrates
reasonable suspicion of an ongoing crime, so this distinction is
immaterial here. Nonetheless, for clarity, the Court notes that
Williams is wrong. Williams apparently failed to read the
footnote attached to the quoted sentence from Cortez: “Of course,
an officer may stop and question a person if there are reasonable
grounds to believe that person is wanted for past criminal
conduct.” 449 U.S. at 417 n.2. The Supreme Court later made
this footnote into a holding, at least with respect to felonies.
United States v. Hensley, 469 U.S. 221, 229 (1985). The Supreme
Court has since avoided the question as to lesser crimes. See
Navarette v. California, 134 S. Ct. 1683, 1690 n.2 (2014).

34a
cause—to suspect a violation of 18 U.S.C. § 1001,
which criminalizes the act of making a false statement
to a federal officer. See, e.g., United States v. Masters,
612 F.2d 1117, 1121 (9th Cir. 1979) (affirming the false
statements conviction based on customs declaration);
United States v. Parten, 462 F.2d 430, 432 (5th Cir.
1972) (same).
Williams counters that he never made a false
statement on his customs form. (ECF No. 32 at 9–10.)
Williams seems to be saying that Allen had no
evidence that Williams did anything but forget to list
Germany on that form. However, an officer “need not
rule out the possibility of innocent conduct, and
reasonable suspicion may exist even if it is more likely
than not that the individual is not involved in any
illegality.” McHugh, 639 F.3d at 1256 (citations and
internal quotation marks omitted).
Moreover,
objectively speaking, a law enforcement officer would
be more than justified in presuming that a person
would not likely forget traveling to a country where he
or she had been arrested in the last six months, and
the law enforcement officer could therefore reasonably
conclude that the omission was intentional and
material.
Apart from this, Allen gained further reasonable
suspicion of criminal wrongdoing during the interview
with Williams. Allen knew Williams had been in
Germany in the past six months, and in fact had been
arrested there. Allen knew that Williams had omitted
Germany from his customs declaration. Allen also
witnessed Williams repeatedly evade questions about

35a
whether he had traveled to Germany.7 Finally, on the
claim forms for his laptop and smartphone, Williams
listed an address that Allen knew to be different from
the permanent address on his passport application
and the address Williams had listed earlier that day
on his customs declaration.
Considering all of the foregoing together, a
reasonable official could suspect that Williams was
attempting to conceal something about his travels
abroad and also attempting to distance himself from
his digital devices.
A reasonable official could
therefore conclude that Williams’s digital devices
contained evidence of an ongoing crime, such as
materials whose importation into or possession in the
United States would be a violation of customs or other
laws.
3.

Scope of the Subsequent Search

Williams argues that whatever reasonable
suspicion may have existed did not justify detaining
the laptop for several days beyond the initial border
crossing and conducting a forensic search. (ECF No.
40 at 9–15.) Williams argues from case law about
Terry stops (see Terry v. Ohio, 392 U.S. 1 (1968)), and
the need for such stops to be limited in scope and
7

Williams suggests he was not evading the Agents’ questions
about his travels to Germany, but instead “properly invoking his
Fifth Amendment right against compulsory self- incrimination.”
(ECF No. 32 at 10.) The Court disagrees. Williams has not moved
to suppress any of these statements. Moreover, a suspect
invoking a Fifth Amendment right to remain silent must do so
unambiguously. Berghuis v. Thompkins, 560 U.S. 370, 381–82
(2010). Telling the investigating officers where to find the
answers (e.g., “look in my passport,” “ask the consulate in
Casablanca”) does not meet that standard.

36a
length. But border searches with reasonable suspicion
are not Terry stops, even though they both share the
reasonable suspicion requirement. Once reasonable
suspicion exists during a border search, Government
officials have broad power to detain individuals and
subject them to certain medical procedures, see
Montoya de Hernandez, supra, and to disassemble
physical objects, see Uribe-Galindo supra. Indeed, the
cases on which Williams relies for the proposition that
reasonable suspicion is a requirement also hold that
once it exists, an away-from-the-border, days-later,
full forensic search of digital devices is permissible.
See Cotterman, supra; Saboonchi, supra.8
Williams also argues that whatever reasonable
suspicion Allen may have had must be judged as of the
time Williams’s electronic devices were seized (i.e., at
the secondary inspection location, before the interview
with Allen and Appel). (ECF No. 40 at 10.) The Court
has already concluded that a law enforcement official
could reasonably suspect a violation of 18 U.S.C.
§ 1001 by this point. But even if that were not the
case, Williams’s argument is incorrect. All that the
various officers had successfully done prior to
8

The Court emphasizes strongly the effect that border search
authority has on the foregoing analysis. If Williams had cleared
customs without incident and had been stopped on the street a
day later by a Denver Police Officer acting purely on reasonable
suspicion, that almost certainly would be a Terry stop, and no
amount of reasonable suspicion alone would permit a search of
Williams’s digital devices. Indeed, full probable cause supported
by a search warrant would in all likelihood be necessary in that
very different setting. See Riley, supra. But, as the above
discussion sets out, current controlling authority makes plain
that, at the border, reasonable suspicion gives border officials
much more authority.

37a
Williams’s interview was seize Williams’s luggage and
digital devices, search the luggage, and unsuccessfully
attempt to access the laptop and smartphone. CBP
has extremely broad authority to visually inspect a
traveler’s belongings, with or without suspicion, see
Ramsey, supra, and that is all that CBP officers had
done before the interview.9

9 Williams has not pointed the Court to any decision in which
it was significant that the government succeeded in lawfully
searching property only after a previous failed attempt to search
the property in an unlawful way. Thus, the Court finds it of no
significance that McGuckin tried and failed to access the laptop
and smartphone at the airport, allegedly before Allen possessed
reasonable suspicion.

38a
IV. CONCLUSION
For the reasons set forth above, Williams’s Motion
to Suppress (ECF No. 19) is DENIED. A new trial
setting will enter by separate order.
Dated this 25th day of September, 2017.
BY THE COURT:
s/ William J. Martinez
William J. Martinez
United States District Judge

